2311 Douglas Street
Omaha, Nebraska 68102-1214

@OQCKLE

Leg al Brie fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

Nos. 19-431 & 19-454

LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL HOME, Petitioner,
v.
PENNSYLVANIA, et al., Respondents.

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, et al., Petitioners,
Vv.
PENNSYLVANIA, et al., Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE AMICI
CURIAE CHILD USA, DIGNITYUSA, NEW WAYS MINISTRY, THE QUIXOTE CENTER,
THE WOMEN’S ALLIANCE FOR THEOLOGY, ETHICS AND RITUAL, AND THE
WOMEN’S ORDINATION CONFERENCE IN SUPPORT OF RESPONDENTS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 7022 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 3rd day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL BOTARY-State of Hebraska ; Chk
A ee oss Kente. Q. Loca Qudraw- he
Notary Public

‘Comm. Exp. September 5, 2023
= = a a Affiant 39552
